             YEAR 2000 WINDOWING TECHNIQUES


Report No. D-2000-190                  September 22, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
Y2K                   Year 2000
                       Office of the Inspector General, DoD
Report No. D-2000-190                                            September 22, 2000
   (Project No. D2000AB-0058)

                        Year 2000 Windowing Techniques

                                Executive Summary

Introduction. The DoD Year 2000 Management Plan provided options including
windowing for agencies to fix systems affected by year 2000 anomalies. The DoD
conversion period for making systems year 2000 compliant ended in March 2000 with
few year 2000 failures experienced. The technique of windowing retains a two digit
year to fix year 2000 problems by using a range measure in 100-year increments (100-
year window) to convert data to the correct century. For example, a two digit date
ending in 50 through 99 would be interpreted by the system as 19XX and a date ending
in 00 through 49 would be interpreted as 20XX. When managers of information
systems use windowing, they must document and communicate their windowing
techniques to all interfacing systems. Otherwise, the use of different windowing
techniques by interface partners increases the risk of future system failure due to
misinterpretation of the correct century when transmitting and receiving data.

Objectives. Our overall objective was to determine the extent to which windowing
techniques were used to remedy year 2000 processing issues. Specifically, we
reviewed interfacing agreements and other documentation to determine whether
managers using windowing disclosed the technique used to interface partners.

Results. Managers who used windowing techniques generally disclosed them to
interface partners. Of the 92 information systems analyzed, 3 had an increased risk of
data corruption because the systems' windowing techniques had not been disclosed to
all interface partners and the potential impact had not been analyzed. After we
identified the problems, the Air Force and the Defense Finance and Accounting Service
agreed to take action to identify the windowing techniques used to all interface partners.
However, additional steps are required for the three systems because they are at
increased risk of future system failure due to transmission and misinterpretation of date-
sensitive information between interfacing systems. For details of the audit results, see
the Finding section of the report.

Summary of Recommendations. We recommend that the Chief Information Officer,
Department of the Air Force, disclose the windowing techniques used by the Air Force
Core Automated Maintenance System for Mobility and the Air Force Automated
Project Order Form System to interface partners, request the windowing technique of
each interfacing system if the windowing strategy was used to address the year 2000
problem, and assess the risk of system failure if different windows were used to
interpret the centuries. In addition, we recommend that the Chief Information Officer,
Defense Finance and Accounting Service, disclose the windowing techniques used by
the Standard Accounting and Reporting System to interface partners, request the
windowing technique of each interface system if the windowing strategy was used to
address the year 2000 problem, and assess the risk of system failure if different
windows were used to interpret the centuries.

Management Comments. The Chief Information Officer, Department of the Air
Force, and the Chief Information Officer, Defense Finance and Accounting Service,
concurred with the finding and recommendations. Air Force officials stated that system
managers exchanged appropriate information on windowing, revised existing interface
agreements when necessary, and performed risk assessments on the affected systems.
The Director of Accounting, Defense Finance and Accounting Service, issued a
memorandum on August 24, 2000, to all interface partners that fully disclosed the
windowing techniques used by the Standard Accounting and Reporting System. The
Director requested that all interface partners review the windowing techniques disclosed
in the memorandum, disclose the window used by their system if it sends data, evaluate
any adverse impact, and contact the Standard Accounting and Reporting System
manager to resolve any conflicts. The complete text of management comments is in the
Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               1

Finding
     Windowing Technique Disclosure                                           2

Appendixes
     A. Audit Process
          Scope                                                               7
          Methodology                                                         8
          Management Control Program                                          8
          Prior Coverage                                                      8
     B. Sample of Date-Dependent Systems that Interface With Other Systems
          and Reported Using Windowing or a Combination                       9
     C. Report Distribution                                                  12

Management Comments
     Department of the Air Force                                             15
     Defense Finance and Accounting Service                                  17
Background
     The DoD Year 2000 Management Plan provided options including windowing
     for agencies to fix systems affected by year 2000 (Y2K) anomalies. The DoD
     conversion period for making systems Y2K compliant ended in March 2000.
     The technique of windowing retains a two digit year to fix Y2K problems by
     using a range measure in 100-year increments (100-year window) to convert
     data to the correct century. For example, a two digit date ending in 50 through
     99 would be interpreted by the system as 19XX and a date ending in 00 through
     49 would be interpreted as 20XX. When managers of information systems use
     windowing, they must document and communicate the windowing techniques
     used to all interfacing systems. Otherwise, the use of different windowing
     techniques by interface partners increases the risk of future system failure due to
     misinterpretation of the correct century when transmitting and receiving data.

Objectives
     Our overall objective was to determine the extent to which windowing
     techniques were used to remedy the Y2K processing issues. Specifically, we
     reviewed interfacing agreements and other documentation to determine whether
     managers using windowing disclosed the technique to interface partners. See
     Appendix A for a discussion of the audit scope and methodology and prior
     coverage.




                                          1
            Windowing Technique Disclosure
            Managers who used windowing techniques generally disclosed them to
            interface partners. Of the 92 information systems analyzed, 3 had an
            increased risk of data corruption because the systems' windowing
            techniques had not been disclosed to all interface partners and the
            potential impact had not been analyzed. After we identified the problem,
            the Air Force and the Defense Finance and Accounting Service agreed to
            take action to identify the windowing techniques used to all interface
            partners. However, additional steps are required for the three systems
            because they are at increased risk of system failure due to transmission
            and misinterpretation of date-sensitive information between interfacing
            systems.
DoD Year 2000 Management Plan
    The DoD Year 2000 Management Plan stated that windowing is a strategy that
    can be used to fix the Y2K problem. The strategy was to document and
    communicate to all interfacing systems to prevent data corruption and to ensure
    that systems would interpret the correct century when transmitting and receiving
    data. To facilitate this strategy, DoD officials used interfacing agreements to
    allow trading partners to mitigate the potential for error by agreeing on formats
    and disclosing interface strategies, thus allowing interfacing systems to continue
    to function and operate.

Sample of Systems Using Windowing Techniques
    Using the February 2000 Y2K system inventory databases of the Services and
    DoD agencies, we selected 92 systems from a universe of 281 systems that were
    categorized as date dependent, used windowing to correct the Y2K problem, and
    interfaced with other systems. The sample of 92 systems contained
    871 interfaces. Table 1 shows the universe of systems, the sample by Service or
    DoD agency, and the number of interfaces involved. Appendix B lists each
    system sampled.

     Table 1. Universe, Sample, and Number of Interfacing Systems Where
        Windowing Techniques Were Used by Service and DoD Agency
                                                                             Number of
     Services and DoD Agencies                    Universe of   Sample of   Interfaces in
                                                   Systems       Systems      Sample
     Army                                            91            26            243
     Navy                                            66            23            199
     Air Force                                       87            30            158
     Marine Corps                                    28             9              75
     Defense Finance and Accounting Service           9             4            196
       Total                                       281             92            871



                                              2
In Table 2, the sample is shown by functional area and Service or agency.

   Table 2. Sample of Systems by Functional Area and Service or Agency
                                                      Air     Marine
Functional Area                 Army           Navy   Force   Corps    DFAS*   Total
Command and Control               5             5       6       0        0      16
Communications                    1             4       2       0        0       7
Finance                           0             0       8       0        4      12
Health                            0             0       2       0        0       2
Information Management            0             1       0       0        0       1
Intelligence                      6             3       0       0        0       9
Logistics                         8             4       3       9        0      24
Personnel and Readiness           0             3       0       0        0       3
Space and Weather                 0             1       9       0        0      10
Weapons                           6             2       0       0        0       8
   Total                         26            23      30       9        4      92

* Defense Finance and Accounting Service

For each system selected, we reviewed supporting documentation on
windowing, such as interfacing agreements, interface control documents that
address design implementation of interfaces, system descriptions, Y2K
certification checklists, and interface flow charts. For 89 systems, the
documents showed the windowing technique used, but the systems did not
transmit date information, did not use windowing techniques to correct the Y2K
problem, or had been replaced with a new system that used a four digit year.
However, we identified two Air Force systems and one Defense Finance and
Accounting Service system that used a windowing technique that did not
exchange windowing information with interface partners.

Air Force Systems. The Air Force program managers for the Air Force Core
Automated Maintenance System for Mobility (G081) and the Automated Project
Order Form System did not exchange windowing information with trading
partners.

The G081 system provides airlift and tanker aircraft maintenance management
information to aircraft engine managers in operational support of the C-5 airlift
force. The G081 has nine interfaces and nine interfacing agreements. Of the
nine interfaces, the Reliability and Maintainability Maintenance system and the
Pratt and Whitney system used windows other than G081. The windows used
by G081 and the other two interfaces are shown in Table 3.




                                           3
     Table 3. The Windows Used for the Core Automated Maintenance
          System for Mobility, the Reliability and Maintainability
         Maintenance System, and the Pratt and Whitney System
System Description   Window Used     Interfacing Systems                  Window Used

Core Automated       51-99=19XX      1. Reliability and Maintainability   47-99=19XX
Maintenance System   00-50=20XX      System                               00-46=20XX
for Mobility G081
                                     2. Pratt and Whitney System          70-00=19XX
                                                                          01-69=20XX

The Automated Project Order Form System provides the workload and financial
status for all end items repaired and identifies the need to make fund
adjustments. The system has nine interfaces. Date information was transmitted
only to the Project Order Control System interface, which uses windowing
techniques and has a different technique than the Automated Project Order
System (see Table 4).

      Table 4. Windows for the Automated Project Order Form
            System and the Project Order Control System
System Description   Window Used     Interface System                     Window Used

Automated Project    94-99=19XX      Project Order                        96-99=19XX
Order Form           00-93=20XX      Control System                       00-95=20XX

The different windows used would create problems for both systems because
one system would interpret data sent or received as one century while the other
systems could interpret it as a different century. This interpretation would result
in data corruption or system failure if the systems failed to recognize the
window used by the interfacing party.

On March 24, 2000, we met with Air Force officials who indicated that they
were unaware of the different windows for the G081 system and its interfaces.
To ensure continual operations without corruption of data due to different
interpretation of the date information, officials agreed to identify the century
logic technique used to correctly infer the century in all G081 interfaces that
send or receive a two digit year. Air Force officials plan to incorporate the
century logic technique into the existing memorandums of agreements. In
addition, in a May 2, 2000, memorandum, Air Force officials agreed to contact
the program manager for the Project Order Control System to identify the
window used by the Automated Project Order Form System and reduce the risk
of data corruption due to different window techniques.

Defense Finance and Accounting Service System. The Standard Accounting
and Reporting System is an accounting system that provides processing and
reporting of General Fund accounting functions for the Navy and other DoD
organizations. The system has 75 interfaces operating under 39 memorandums
of agreement. Only 1 of the 39 agreements mentioned windowing techniques
and did not disclose the specific technique used. For all 75 interfaces, officials

                                     4
    could not identify whether the systems received or transmitted date information,
    identify the windows used when windowing techniques were applied, or
    determine whether the interface processed date information after it was
    transmitted or received.

    The absence of interfacing agreements, ignorance of solutions for the Y2K
    problem by trading partners, and uncertainties of transmitted date information
    all increase the risk of potential system failure.

    Officials from the Defense Finance and Accounting Service stated that they
    would provide a memorandum to all interface partners disclosing the windowing
    technique used to remedy Y2K processing issues and would solicit the trading
    partners to disclose their windowing techniques. The officials also agreed, if
    funding allows, to perform a through risk assessment of different window
    techniques.

Conclusion
    The DoD Year 2000 Management Plan authorized the use of the two digit fix
    for Y2K anomalies using windowing techniques with a range measure in
    100-year increments to convert data to the correct century. It is imperative that
    each interfacing system can recognize the windowing technique used by other
    systems to prevent data corruption. A system’s interfaces, data exchange
    formats, protocols, and windowing techniques are usually included in an
    interface agreement. We found 3 exceptions in our sample of 92 systems.
    While officials agreed to take some steps, further action is needed. Air Force
    and Defense Finance and Accounting Service officials must request and obtain
    from interface partners the windowing techniques employed if a windowing
    strategy was used to address the Y2K problem. Officials must also assess the
    risk of system failure if different windows were used to interpret the centuries.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Chief Information Officer, Department of the
    Air Force, disclose the windowing techniques used by the Air Force Core
    Automated Maintenance System for Mobility and the Automated Project
    Order Form System to interface partners, request the windowing technique
    of each interface system if a windowing strategy was used to address the
    year 2000 problem, and assess the risk of system failure if different
    windows were used to interpret the centuries.

    Air Force Comments. The Air Force concurred with the recommendation.
    Officials stated that they exchanged and coordinated with appropriate
    information systems managers the windowing techniques used by the Air Force
    Core Automated Maintenance System for Mobility, added an addendum to
    affected interface agreements documenting their action, and conducted risk
    assessments of system failure. The risk assessments identified that possible

                                        5
interface failure could occur in 2049 for all interfaces to the Air Force Core
Automated Maintenance System for Mobility except for the interfaces to the
Lockheed system and the Reliability and Maintainability System. These systems
could fail in 2029 and 2046, respectively. Officials stated that they will assess
the remaining life of the systems no later than the year 2025, and take
appropriate action by 2045 for possible system interface failures. Officials for
the Automated Project Order Form System disclosed the windowing technique
used to its interface partners on May 4, 2000, and verified that the system does
not process the date information it receives from its interface partners.

2. We recommend that the Chief Information Officer, Defense Finance and
Accounting Service, disclose the windowing techniques used by the
Standard Accounting and Reporting System to interface partners, request
the windowing technique used by each interfacing system if a windowing
strategy was used to address the year 2000 problem, and assess the risk of
system failure if different windows were used to interpret the centuries.

Defense Finance and Accounting Service Comments. The Chief Information
Officer, Defense Finance and Accounting Service, concurred with the finding
and recommendation. The Director of Accounting, Defense Finance and
Accounting Service, issued a memorandum on August 24, 2000, to all interface
partners that fully disclosed all of the windowing techniques used by the
Standard Accounting and Reporting System for data sent to or received from
interface partners. The Director requested that the interface partners review the
windowing techniques used by the Standard Accounting and Reporting System,
disclose the window used by their system if it sends data to the Standard
Accounting and Reporting System, evaluate any adverse impact, and contact the
Standard Accounting and Reporting System manager to resolve any conflicts.




                                    6
Appendix A. Audit Process
    This report is one in a series being issued by the Inspector General, DoD, in
    accordance with an informal partnership with the Chief Information Officer,
    DoD, to monitor DoD efforts to address the Y2K computing challenge. For a
    listing of audit projects addressing this issued, see the Y2K webpage on Ignet at
    http://www.ignet.gov.

Scope
    We reviewed and evaluated interface agreements for windowing techniques of
    interfacing systems external and internal to the DoD and the Services. We
    evaluated efforts of the Army, Navy, Air Force, Marine Corps, and other DoD
    agencies when compared to the DoD Year 2000 Management Plan. We
    conducted discussions with DoD and the Services to evaluate whether all
    applicable interfacing systems were aware of the windowing technique used.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. Currently DoD had not established a
    corporate level goal for Information Assurance, the General Accounting Office
    lists it as a high risk area. This report pertains to Information Assurance as well
    as achievement of the following goal, subordinate performance goal, and
    performance measure:

    •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
        future by pursuing a focused modernization effort that maintains U.S.
        qualitative superiority in key warfighting capabilities. Transform the force
        by exploiting the Revolution in Military Affairs, and reengineer the
        Department to achieve a 21st century infrastructure. (00-DoD-2)
    •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
        information management. (01-D0D-2.5)
    •   FY 2001 Performance Measure 2.5.3: Qualitative Assessment of
        Reforming Information Technology Management. (01-D0D-2.5.3).

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.


    Information Technology Management Functional Area.

           Objective: Provide services that satisfy customer information needs.
           Goal: Upgrade technology base. (ITM-2-3)


                                         7
Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from February through June 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We relied on computer-processed
    data without performing tests of system general and application controls to
    confirm the reliability of the database. However, not establishing the reliability
    of the database will not affect the results of our audit. We relied on judgmental
    sampling procedures to develop conclusions on this audit. We judgmentally
    selected DoD mission-critical, date-dependent, interfacing systems, using
    windowing or other temporary techniques. The Technical Assessment Division,
    Audit Followup and Technical Support Directorate, Office of the Inspector
    General, provided expertise in the use of different techniques, including
    windowing, to address the Y2K issue.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program
    We did not review the management control program related to the overall audit
    objectives because DoD recognized the Y2K issue as a material management
    control weakness area in the FY 1999 Annual Statement of Assurance. In
    addition, the Department's systems successfully made the January through
    March 2000 transition.

Prior Coverage
    General Accounting Office and the Inspector General, DoD. The General
    Accounting Office and the Inspector General, DoD, conducted about 200
    reviews related to Y2K issues. General Accounting Office reports can be
    accessed over the Internet at http://www.gao.gov. Inspector General, DoD,
    reports can be accessed over the Internet at http://www.dodig.osd.mil.




                                        8
Appendix B. Sample of Systems for Windowing
        Description of Mission–Critical System           Identification Number



Army
   1    Army Total Assest Visibility                                     DA00935
   2    ASAS - Comm Control Sys (BLOCK I) (SEC)                          DA00642
   3    ASAS-SS/EAC (BLOCK I) (SEC)                                      DA00639
   4    C-12, Fixed Wing, King Air                                       DA01669
   5    C-23, Fixed Wing Sherpard                                        DA01672
   6    C-26, Fixed Wing Comp Fairchild Metro Liner                      DA01673
   7    Combat Service Support Control System                            DA01163
   8    Cont Central Comp AN/FSC-115, GSC-63 (SEC)                       DA00580
   9    DoD Address Directory                                            DA00914
   10   Global Command and Control System - Army                         DA02185
   11   Guardrail/Common Sensor System 1, AN/USD-9D                      DA00627
   12   Guardrail/Common Sensor System 4, AN/USD-9C                      DA00628
   13   Initial Fire Support Automated System (SEC)                      DA00605
   14   Integrated Meteorological System (IMETS) Block II                DA01161
   15   Lightweight Tac. Fire Direction Sys (SEC)                        DA00062
   16   Logistics Intelligence File                                      DA00886
   17   MLRS - Fire Direction Sys, AN/GYK-37 (SEC)                       DA01343
   18   RC-12, Guardrail, Fixed Wing Aircraft                            DA01676
   19   Standard Army Retail Supply System Level 1 Objective             DA00486
   20   Transportation Coordinator's Automated C2 Information System     DA00066
   21   Trailblazer, AN/TSQ-138 (SEC)                                    DA00624
   22   UC-35A, Fixed Wing, Citation                                     DA01675
   23   U-21, Fixed Wing King Air                                        DA01674
   24   Unit Level Logistics System – Aviation                           DA00484
   25   Unit Level Logistics System – Ground                             DA00483
   26   Unit Movement Visability                                         DA00902

Navy
   1    AN/SMQ-11, Receiver Recorder Set                                   5642
   2    AN/SSN-2 (V) Precise Integrated Navigation System                  8459
   3    AN/WLQ-4(V) Sea Nymph                                              8549
   4    Aviation Maintenance Material Management                           5567
   5    CCS REV 6.3                                                        8522
   6    Cooperative Engagement Capability 2                                8528
   7    Global Command And Control System Maritime - Tactical              5512
   8    Inactive Manpower And Personnel Management Information             7310
   9    Manpower Personnel and Training Management & Administration       10176
   10   Naval Aviation Command Management Information System Intermediate 5558
        Maintenance Activity
   11   Naval Aviation Command Management Information System               5559

                                          9
    12      Navigation Command and Control System (NAV/C2)                        8462
    13      Navy Key Management System                                            5541
    14      Ocean Surveillance Information System Baseline Upgrade/OSIS           5513
    15      Shipboard Nontactical ADP Program                                     5557
    16      Reserve Headquarters Support                                          7406
    17      Ships Signal Exploitation Equipment (Tactical Cryptolgic System       5508
    18      Shore Signal and Information Processing Segment/Surveillance          5521
            Direction System
    19      Silent Knight (AN/WLQ-4(V)1)                                          8471
    20      Submarine Message Buffer                                              5538
    21      SURTASS- LFA Low Frequency Active                                     5587
    22      Tactical Intel Info Exchange System II/SCI ADNS                       5499
    23      Trident Integrated Radio Room (CM11)                                  5534

Air Force
    1       Air Force Satellite Control Network - Range Segment               99007977
    2       Air Force Satellite Control Network Communications Segment        99007976
    3       Analysis of Mobility Platform                                     AS006482
    4       Automated Budget Analysis/Centralized User System                 AS006850
    5       Automated Business Services System                                99003529
    6       Automated Patient Evacuation System                               AS007017
    7       Automated Project Order Form System                               99001874
    8       Ballistic Missile Early Warning System I                          99008001
    9       Ballistic Missile Early Warning System II                         99008002
    10      Ballistic Missile Early Warning System III                        99008003
    11      Core Automated Maintenance System for Mobility                    99002937
    12      Central Procurement Accounting System                              2000736
    13      Defense Medical Regulating Information System                     AS007016
    14      Defense Meteorological Satellite Program-Ground Segment-          AS003378
              MARK IV-B & STT
    15      Defense Satellite Communication System - Ground Support           99007983
    16      Depot Level Maintenance Requirements And Program                   1000232
            Management System
    17      Eglin FPS-85                                                      99004756
    18      GPS Space Segment                                                 AS003521
    19      Job Order Cost Accounting System II                                2001287
    20      Logistics Information Brokering System                            99005004
    21      Maintenance Actual Material Cost System                            1000205
    22      Milstar - Ground Segment                                          AS003964
    23      PAVE PAWS Phased Array Radar                                      31002615
    24      Perimeter Acquisition Radar Charactarization System               31002608
    25      Space Defense Operations Center                                   31002940
    26      Space Environmental Support System Ionoshperic Segment            AS003427
    27      Space Environmental Support System Operations Segment             99002654
    28      Space Environmental Support System Solar Segment                  AS003428
    29      Spacelift Range - Eastern Range                                   AS002798
    30      Weapon System Cost Retrieval System                                2002417


                                              10
Marine Corps
    1     Allotment Accounting Subsystem                                     5756
    2     Computer-Aided Embarkation Management System(USMC)                 5683
    3     Direct Support Stock Control Subsystem                             5754
    4     MAGTF Deployment Support System II                                 5742
    5     Mechanization of Warehousing & Shipment Processing                 5753
    6     Supported Activities Supply System                                 5777
    7     Transportation Coordinators Automated Information for Movements    5788
          System
    8     War Reserve System                                                 5809
    9     Wholesale/Retail Stratification                                    5783

Defense Finance and Accounting Service
    1     Data Element Managerial Accounting & Reporting System             AR7206
    2     Standard Accounting And Reporting System                          DN7306
    3     Standard Industrial Fund System                                   AR6161
    4     Standard Operations And Maintenance, Army R&D System              AR7208




                                          11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Chief Information Officer and Deputy Assistant Secretary of Defense (Chief
      Information Officer Policy and Implementation)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
  Office of Information and Regulatory Affairs
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center
  Director, Defense Information and Financial Management Systems, Accounting and
      Information Management Division




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                           13
Department of the Air Force Comments




                  15
16
Defense Finance and Accounting Service
Comments




                    17
18
19
20
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for Auditing, DoD,
prepared this report.

Thomas F. Gimble
Mary L. Ugone
Raymond A. Spencer
Thomas S. Bartoszek
Lisa E. Novis
Thomas J. Hilliard
Noble C. White
Carrie J. Gravely
Sarah L. Brownell
Chanda D. Lee
Trisha L. Staley
Douglas Reed
Herbert K. Braun
Krista S. Gordon
